Review of the Commission’s
Restacking Project




                             March 31, 2009
                             Report No. 461
Review of the Commission’s Restacking
Project

                            Executive Summary
Background
We initiated this review because of feedback received from numerous staff of the
U.S. Securities and Exchange Commission (SEC or Commission) complaining
about the ongoing restacking project and expressing the concern that the
restacking project was not properly approved and initiated, did not serve a useful
purpose, and was a waste of Commission resources.

In 2006, the Commission moved into new buildings at its headquarters location in
Washington, D.C., known as the Station Place 1 and 2 buildings (Station Place). 1
In May 2005, the SEC disclosed to a U.S. House of Representatives
Subcommittee that it had identified unbudgeted costs of approximately $48
million, attributable to misestimates and omissions of budget costs associated
with the internal construction of the headquarters facility and improvements in
newly-leased New York and Boston facilities.

As a result of this disclosure, the House Subcommittee requested that the
Government Accountability Office (GAO) conduct a review of the circumstances
that led to the unbudgeted costs. The GAO review concluded that the primary
cause of the misestimates and omissions of the SEC were: (1) ineffective
management controls over budget formulation and review for the construction
projects; (2) an inadequate administrative infrastructure; and (3) the nature of
these facilities projects.

As a result of the review, the GAO made several recommendations, including
that the SEC should establish accountability at both the staff and management
levels for the reasonableness of budget estimates, improve communication and
consultation with operating units and staff regarding space and property needs,
and evaluate options for budget and facilities management activities in terms of
number of staff and expertise needed. The SEC has indicated that it took actions
to implement the GAO’s recommendations.

Notwithstanding the significant costs expended by the SEC in connection with
the moves at headquarters, New York and Boston, including the approximately

1
  Commission headquarters includes staff located at Station Place, as well as staff located at the
SEC’s Operations Center in Alexandria, Virginia. Throughout this report, unless noted otherwise,
the term “headquarters” refers to Station Place.
Review of the Commission’s Restacking Project                                       March 30, 2009
Report No. 461

                                                 i
$48 million in unbudgeted costs, and the criticism from the GAO regarding the
SEC’s management controls over budget formulation and review, there
reportedly was widespread sentiment in favor of restacking (i.e., changing the
configuration of the layout of the offices and divisions) almost from the time the
Commission moved into its new headquarters building.

The plan utilized when the SEC initially moved into its new headquarters
buildings was a “vertical stack” configuration of staff, pursuant to which staffs of
the Commission divisions and offices were spread out on multiple floors. The
purpose of this vertical configuration was to enable staff from various divisions
and offices to commingle on the same floor, instead of keeping staff in a single
division or office located close together on the same floor.

Almost immediately after the SEC decided to utilize this vertical approach, SEC
managers decided that a horizontal approach was preferable, so that divisions
and offices would not be split up across multiple floors. As a result, in or about
February 2007, the Chairman asked the Executive Director to explore the idea of
a restacking of Commission staff, including performing a cost-benefit study.

There is no record, however, of the Executive Director actually conducting a cost-
benefit analysis or feasibility study, although the Executive Director stated that
the monetary costs of the move were analyzed and discussed in senior staff and
other meetings. There was also no documented request for the restacking
project although, according to the Executive Director, the normal procedure in
setting budget priorities was for the Chairman’s direction to be made verbally.

The restacking project was approved in the second or third quarter of Fiscal Year
2007 and included the relocation of approximately 1,750 employees on the
second through the ninth floors of Station Place, in nine move phases. In
addition, the project required 40,000 square feet of construction. In September
2007, a contract for the restacking project was awarded to Project Solutions
Group (PSG) initially for $1,303,470. The cost of construction drawings and
permits, and an equitable adjustment for the Government’s delay have increased
this contract to $1,751,414. In September 2008, an additional contract, for the
construction associated with the restacking, was awarded to QSS International
(QSSI) for $1,345,500 to renovate 40,000 square feet of space in Station Place 1
and 2. Another contract, for construction administration, was awarded to Matrix
Settles, the architect on the restacking project with PSG, for $84,150.

The initial government estimate for the restacking project in 2007 was
$2,332,000, but did not include any amount for construction. As of February
2009, the funding obligated in connection with the restacking project, including
construction, was approximately $3.19 million. As of November 2008, the total
cost of the completed project was estimated at $3.9 million (which had been
reduced from an estimate of approximately $4.6 million in June 2008). Also, the


Review of the Commission’s Restacking Project                            March 31, 2009
Report No. 461
                                                ii
project completion date has been moved back nine months (from September
2008 to June 2009).
Objectives
The objectives of our review were to assess whether the restacking project was
conducted in accordance with applicable policies and procedures and whether an
appropriate analysis or study was conducted to determine if the restacking
project was cost effective and beneficial to the agency.

This review was not conducted in accordance with generally accepted
government auditing standards. As a review, there was no requirement to follow
generally accepted government auditing standards.

Results
Immediately after the SEC incurred significant costs and budget overruns in
connection with the move into its new headquarters building in 2005, there
reportedly was widespread sentiment that the configuration of the space in the
new building to stack the staff in a vertical approach should be changed. This
vertical approach, which former Chairman William Donaldson’s Managing
Executive for Operations had championed, was intended to enable staff from
various divisions and offices to commingle on the same floor, resulting in greater
communication and coordination among agency staff as a whole. Senior
managers, however, believed the vertical configuration impeded effective
communication and collaboration among staff within divisions and offices. As a
consequence, in or about February 2007, the Chairman asked the Executive
Director to explore the idea of restacking the Commission staff.

Although a cost-benefit analysis was supposed to have been conducted, there is
no record of any such analysis or feasibility study being done. There was also no
survey or study conducted to determine if the existing configuration was actually
impeding communication, or any formal analysis of whether the cost and
disruption caused by the project would outweigh the perceived benefits of
improved communication. Further, according to information obtained during our
review, the former head of the Office of Administrative Services was not at all in
favor of the project, but was given “marching orders” to go forward with it
anyway.

During our review, we sent a survey to approximately 2,100 Commission staff in
headquarters buildings Station Place 1 and 2, as well as the Operations Center,
to obtain their views on how the restacking to date has improved communication
and effectiveness. 2 The survey found that staff were largely satisfied with the
location of their workspace prior to the restacking. In addition, we found that
most of the staff did not feel dissatisfied with the time it took to communicate with

2
 We included Operations Center staff to obtain their opinions of the project. Some Operations
Center staff were relocated to Station Place in connection with the restacking project.

Review of the Commission’s Restacking Project                                     March 31, 2009
Report No. 461
                                                iii
either their co-workers or supervisors prior to the restacking, nor did they feel that
the prior configuration of their office space impeded their productivity. In
addition, the survey showed that staff who have already moved to their
permanent workspace felt, for the most part, that the move had no impact on
their ability to communicate or their productivity. In addition, an overwhelming
majority of Commission staff who responded to the survey felt that any benefits
of the restacking project were not worth the costs and disruptiveness to their
work.

Additionally, our review found that prior to undertaking the restacking project, the
SEC failed to comply with Office of Management and Budget (OMB)
requirements and guidance for analyzing and justifying major capital investments
and did not complete the form that had to be submitted to OMB for such projects.
Our review also noted that the SEC policies and procedures for space
management, particularly in regard to headquarters facilities projects, are
unofficial and quite sparse. Moreover, the single requirement in this document
that would have applied to the restacking project does not appear to have been
complied with.
.
Thus, we conclude that there are serious questions about whether the restacking
project was necessary and whether it had any meaningful impact on
communication among or productivity of the staff. We also conclude that the
SEC should have conducted a formal cost-benefit analysis of the restacking
project and, had such an analysis been prepared, it may have led to the
conclusion that the restacking project was not worth the costs and disruption to
the Commission.

Summary of Recommendations
We recommend that the Office of Administrative Services (OAS) carefully review
the results of the OIG’s survey and determine if any changes should be made to
the restacking project based upon the responses. We further recommend that
the OAS conduct another survey after the restacking process has been fully
completed to understand the effects and impacts of the project better and
determine what, if any, changes should be implemented.

In addition, we recommend that, in light of the fact that the restacking project is
still ongoing; the OAS should conduct appropriate analysis to complete and
submit to OMB the required capital planning documentation for the remainder of
the project. Finally, we recommend that the OAS, in coordination with the Office
of Executive Director and using SEC information technology capital planning
requirements as a guide, develop and adopt guidance for space investments that
is commensurate with OMB’s guidance for capital investments.




Review of the Commission’s Restacking Project                            March 31, 2009
Report No. 461
                                                iv
                              TABLE OF CONTENTS
Executive Summary .............................................................................................. ii
  Background ....................................................................................................... ii
  Objectives ........................................................................................................ iii
  Results ............................................................................................................. iii
  Summary of Recommendations ....................................................................... iv

Table Of Contents................................................................................................. v

Background and Objectives ..................................................................................1
  Background .......................................................................................................1
    The SEC’s Previous Moves and Disclosure to Congress of Significant
    Unbudgeted Costs for 2005 and 2006 ...........................................................1
    GAO Review of 2005 and 2006 Unbudgeted Costs......................................1
    Headquarters Restacking Project ..................................................................2
      The Perceived Need for and Decision to Undertake the
      Restacking Project .....................................................................................2
      The Initiation and Progress of the Restacking Project................................4

   Objectives .........................................................................................................5

Findings and Recommendations...........................................................................6

   Finding 1: The OIG Survey Showed that the Headquarters Configuration Prior
   to the Restacking Project Was Not Necessarily Undesirable and that the
   Restacking Project Has Not Made a Meaningful Improvement in
   Communication Among or Productivity of the Staff ...........................................6
      The Purpose of the Restacking Project .........................................................6
      The OIG Survey Questionnaire to Commission Staff.....................................7
      The Methods of Communication Most Frequently Used by SEC Staff..........7
        Table 1: Q. 15 - Ranking of Methods of Communication Most or Least
        Often Used to Communicate With Non-Management Staff ........................7
        Table 2: Q. 16 - Ranking of Methods of Communication Most or Least
        Often Used to Communicate With Management Staff................................8
      Staff Satisfaction with Communication Before and as a Result of
      the Restacking ...............................................................................................9
        Table 3: Q. 13 - How do you feel about the time it took to communicate
        with staff (non-management and management) in your organization
        before the restacking project began? .........................................................9
        Table 4: Q. 14 - How do you feel about the time it now takes to
        communicate with staff (non-management and management) in your
        organization since moving to your permanent workspace?......................10
      Staff’s Satisfaction with Previous Space Before and as a Result of
      the Restacking .............................................................................................11

Review of the Commission’s Restacking Project                                                            March 31, 2009
Report No. 461
                                                            v
       Table 5: Q. 17- How did you feel about the location of your workspace
       before the restacking project was initiated? .............................................11
       Table 6: Q. 19- How do you feel about the location of your permanent new
       workspace? ..............................................................................................11
     Perceived Productivity of Staff Before and as a Result of the Restacking ...12
       Table 7: Q. 24- “To what extent did having the alignment in place
       prior to the restacking project impede your organization’s productivity? ..12
       Table 8: Q. 25- How has the move to your temporary workspace impacted
       your productivity? .....................................................................................12
       Table 9: Q. 26- How has the move to your permanent new workspace
       impacted your productivity?......................................................................13
     Perceived Effectiveness and Efficiency Before and as a Result of the
     Restacking ...................................................................................................13
       Table 10: Q. 28- In your opinion, to what extent will the alignment after the
       restacking project help to improve the effectiveness and/or efficiency of
       your office/division?..................................................................................13
     Communication of the Purpose of the Restacking .......................................14
       Table 11: Q. 15- How well was the purpose of the restacking project
       communicated to you? .............................................................................14
     Staff Views on Whether the Restacking Project Was Worth the Costs and
     Disruption.....................................................................................................15
       Table 12: Q. 31- In your opinion, are the restacking project benefits to your
       office/division worth the cost and time that it has taken for construction,
       packing, moving, and unpacking, etc.? ....................................................15
     Recommendation 1......................................................................................17
     Recommendation 2......................................................................................17

  Finding 2: The SEC Did Not Comply with OMB Circular, A-11, Part 7, and Did
  Not Perform Sufficient Analysis to Support the Decision to Approve the
  Restacking Project. .........................................................................................18
    OMB Circular A-11, Part 7 ...........................................................................18
    The Capital Programming Guide .................................................................19
    Lack of Documentation and Analysis for the Restacking Project .................21
    Recommendation 3......................................................................................23

  Finding 3: The SEC Does Not Have Sufficient Policies and Procedures in
  Place to Ensure that Major Capital Projects Like the Restacking Project are
  Adequately Analyzed and Supported. .............................................................23
    Executive Order 13327 ................................................................................23
    The Commission’s Unsigned Space Management Regulation,
    SECR 5-8.....................................................................................................24
    Information Technology Capital Planning Policies and Procedures.............24
    Inadequate Policies and Procedures for Real Property Projects .................25
    Recommendation 4......................................................................................26



Review of the Commission’s Restacking Project                                                       March 31, 2009
Report No. 461
                                                         vi
Appendices

Appendix I: Abbreviations and Acronyms ..........................................................27
Appendix II: Scope and Methodology ................................................................28
                Scope. .......................................................................................28
                Methodology. .............................................................................28
                Internal/Management Controls ..................................................28
                Use of Computer-Processed Data.............................................28
                High-Risk Areas.........................................................................29
                Prior Audit Coverage .................................................................29
Appendix III: Criteria ..........................................................................................30
Appendix IV: List of Recommendations .............................................................31
                 Recommendation 1 ..................................................................31
                 Recommendation 2 ..................................................................31
                 Recommendation 3 ..................................................................31
                 Recommendation 4 ..................................................................31
Appendix V: Management Comments ...............................................................32
Appendix VI: OIG Response to Management Comments...................................42




Review of the Commission’s Restacking Project                                                     March 31, 2009
Report No. 461
                                                        vii
                   Background and Objectives
Background
The SEC’s Previous Moves and Disclosure to Congress of Significant
Unbudgeted Costs for 2005 and 2006
Beginning in 2001, the U.S. Securities and Exchange Commission (SEC or
Commission) entered into leases for space in new facilities in Washington, D.C.
for its headquarters employees. 3 Subsequently, the SEC also arranged for
improvements in new leased facilities in New York City and Boston. The SEC
originally estimated a total tenant build-out cost of approximately $97 million for
the new headquarters facility (including both Station Place buildings), of which
the SEC would pay $47 through appropriated funds. 4 In May 2005, the SEC
disclosed to the Subcommittee on Science, the Departments of State, Justice,
and Commerce, and Related Agencies of the House Committee on
Appropriations that it had identified unbudgeted costs for Fiscal Years 2005 and
2006 of approximately $48.7 million. These unbudgeted costs were attributable
to misestimates and omissions of budget costs associated with the construction
of the facility in Washington, D.C. and improvements in the New York and Boston
facilities, resulting in a requested reprogramming of funds for 2005 and 2006. 5

GAO Review of 2005 and 2006 Unbudgeted Costs
As a result of this disclosure, Congress requested that the Government
Accountability Office (GAO) provide a briefing on the facilities management and
budgeting issues of the SEC. From July through August of 2005, the GAO
conducted a review of the circumstances that led to the unbudgeted costs and
provided a formal briefing document to the Chairman of the Subcommittee on
Science, the Departments of State, Justice, and Commerce, and Related
Agencies on October 20, 2005, on the results of its review. 6

The GAO concluded that the primary causes of the misestimates and omissions
of the SEC were: (1) ineffective management controls over budget formulation
and review for the construction projects; (2) an inadequate administrative

3
  The lease for Station Place 1 was awarded to Louis Dreyfus Properties, LLC on May 29, 2001.
The SEC entered into a lease with 600 Second Street Holdings LLC for Station Place 2 on
November 26, 2002.
4
   The remainder of the $97 million was to be covered by the building owner through tenant
allowances.
5
  Of the $48.7 million in unbudgeted costs, $19.3 million were attributable to the construction of
the new headquarters facility, while $29.4 million resulted from the lease improvements in New
York City and Boston.
6
  See GAO-06-61R SEC Project Management, Briefing to The Honorable Frank R. Wolf, subject:
U.S. Securities and Exchange Commission: Building Project Management and Related Budget
Planning, October 20, 2005.

Review of the Commission’s Restacking Project                                       March 31, 2009
Report No. 461
                                                Page 1
infrastructure; and (3) the nature of these facilities projects. Specifically, the
GAO found that the SEC did not include any improvement costs for its newly-
leased office space in New York for budget years 2005 and 2006, and included
unrealistically low costs for improvements in the new Boston office and
construction costs for the headquarters building. The GAO noted that the
estimates for Boston were based on a “rule-of-thumb” amount that had not been
updated annually and was not adjusted for current labor and materials costs.
The GAO further observed that the SEC’s estimates for the headquarters
building had not been updated in 18 months and, therefore, did not reflect
increased costs for construction materials, security and technology.

The GAO found that there was a lack of oversight and quality assurance over
project management and budget planning at the SEC for these projects, as well
as a lack of internal controls over budget estimates. In addition, according to the
GAO, there was inadequate consultation with the Commissioners and key
divisions regarding space needs, resulting in change orders and additional costs.
The GAO also found that there was insufficient institutional expertise and
resources in facilities management within the SEC.

As a result of the review, the GAO made several recommendations for
improvement, including that the SEC should establish accountability at both the
staff and management levels for the reasonableness of budget estimates,
improve communication and consultation with operating units and staff regarding
space and property needs, and evaluate options for budget and facilities
management activities in terms of number of staff and expertise needed. The
SEC indicated that it had taken steps to implement the GAO’s recommendations.

Headquarters Restacking Project
The Perceived Need for and Decision to Undertake the Restacking Project
Notwithstanding the significant costs expended by the SEC in connection with
the previous moves at headquarters, New York and Boston, including the
approximately $48 million in unbudgeted costs, and the criticism from the GAO
regarding the SEC’s management controls over budget formulation and review,
according to the SEC’s Executive Director, there was widespread sentiment in
favor of restacking (i.e., changing the configuration of the layout of the offices
and divisions) almost from the time the Commission moved into its new
headquarters buildings.

SEC senior management officials informed us that the plan utilized by Chairman
Donaldson’s Managing Executive for Operations when the SEC initially moved
into its new headquarters building was a “vertical stack” configuration of staff. In
a vertical configuration, the staffs of the larger Commission divisions and offices
(e.g., the Divisions of Corporation Finance and Enforcement) were located on
multiple floors. The intended purpose of this configuration was to enable staff
from various divisions and offices to commingle by being located on the same

Review of the Commission’s Restacking Project                           March 31, 2009
Report No. 461
                                                Page 2
floor, instead of keeping staff in a single division or office located close together
on the same floor. The stated reasons for this approach were to “’cross-pollinate’
the agency and break down silos” by locating divisions or offices on multiples
floors. 7

However, we were informed that almost immediately after the SEC decided to
utilize this vertical approach, SEC managers determined that a horizontal
approach was preferable, so divisions and offices would not be split up across
multiple floors. 8 Specifically, the Divisions of Enforcement and Corporation
Finance were spread out over five floors each, and “[t]he Office of the Chief
Accountant was spread out over two floors, in spite of it being a small office.” 9
We were informed that SEC managers believed that the “vertical” approach
discouraged effective communication and collaboration, since staff would often
have to travel to different floors for meetings with the co-workers in their division
or office, group, or branch with whom they worked most closely.

Managers from several Commission divisions and offices expressed their
concerns to former Chairman Cox about the configuration of staff in the
headquarters building. In or about February 2007, the Chairman asked the
Executive Director to explore the idea of a restacking of Commission staff. The
Executive Director was to perform a cost-benefit study regarding the restacking
and report the results to the Chairman. According to two February 26, 2007
memoranda, Chairman Cox “asked [the] Executive Director to study and report
back to [him] on the costs and benefits that would be involved” with relocating
divisions and offices within the Commission’s headquarters building. 10

There is no record of the Executive Director actually having conducted a cost-
benefit analysis or feasibility study, although the Executive Director stated that
the monetary costs of the move, as well as potential drawbacks, were analyzed
and discussed extensively in senior staff and other meetings. According to the
Executive Director, the opinions expressed by the senior staff as to the
desirability of restacking “were overwhelmingly positive.” 11 The Executive
Director noted that a feasibility study was not conducted because the benefits of
conducting the restacking were deemed to be significantly greater than the one-
year cost of the project, although it is unclear how the Executive Director arrived
at this conclusion without conducting the study.
7
  Response of the SEC Executive Director to OIG Questions Concerning the Restacking Project,
page 1.
8
  According to the SEC’s Executive Director, the vertical configuration plan was implemented
against the wishes of much of the Commission’s senior management.
9
  Response of the SEC Executive Director to OIG Questions Concerning the Restacking Project,
page 1.
10
   Memorandum from Chairman Christopher Cox to the Chief Accountant, dated February 26,
2007, pages 1-2, and Memorandum from Chairman Christopher Cox to the Director of the
Division of Corporation Finance, dated February 26, 2007, page 2.
11
   Response of the SEC Executive Director to OIG Questions Concerning the Restacking project,
at 2.

Review of the Commission’s Restacking Project                                   March 31, 2009
Report No. 461
                                                Page 3
There was also no documented request for the restacking project although,
according to the Executive Director, the normal procedure in setting budget
priorities was for the Chairman’s direction to be made verbally.

The Assistant Director for Real Property in the Office of Administrative Services
(OAS) informed the Office of Inspector General’s (OIG) in an interview
conducting during the course of the review that the former head of OAS was not
at all in favor of the restacking and referred to it as a “thankless task.” Further,
the Assistant Director for Real Property stated that the former head of OAS had
“marching orders” from above (possibly the Executive Director's Office or the
Chairman’s Office) to undertake the project. Another source in OAS informed the
OIG that OAS was asked to do the restacking by the Executive Director’s Office
and that the former head of OAS did not want to consider the restacking project
initially because there were so many other projects ahead of it. The Assistant
Director for Real Property further stated that no cost benefit analysis was
performed, no other alternatives were considered, 12 and the staff were not
contacted to determine if they were in favor of the restacking.

The Initiation and Progress of the Restacking Project

The restacking project was approved in the second or third quarter of Fiscal Year
2007, and included the relocation of approximately 1,750 employees on the
second through ninth floors of the headquarters building, in nine move phases.
In addition, the project required 40,000 square feet of construction, as well as the
moving of numerous employees to temporary office space during the
construction. The moves were scheduled to begin in the fall of 2008 and were to
be completed during 2009.

In September 2007, the SEC awarded a contract for the restacking project to
Project Solutions Group (PSG) in the amount of $1,303,470, with two additional
options available. 13 The scope of the initial contract included managing the
planning and execution of the restacking project, as well as the supervision and
provision of moving services. The contractor was required to provide a master
project plan and schedule for the restacking. Also, the contractor was to provide
cost estimates for renovations and furniture. The cost of construction drawings
and permits, and an equitable adjustment for the Government’s delay, have
increased the total amount of the contract to $1,751,414. 14 The restacking


12
   The Executive Director stated that the alternatives of doing nothing, maintaining the status quo
with variations, such as additional training, or doing a consolidation of only some offices were
considered but rejected. Response of SEC Executive Director to OIG Questions Concerning the
Restacking Project, page 3.
13
   One company, Facilities Solutions Group, protested the award to PSG. The SEC’s contracting
officer for the PSG contract denied the protest.
14
   We were informed that the Government’s delay was due to failed negotiations with the Station
Place property owner over liability issues related to obtaining a construction general contractor,

Review of the Commission’s Restacking Project                                        March 31, 2009
Report No. 461
                                                Page 4
project’s initial completion date (including all moves) was scheduled for
September 2008, one year from the award in September 2007.

In September 2008, the SEC awarded a separate contract for the construction
associated with the restacking project to QSS International (QSSI) for $1,345,500
to renovate 40,000 square feet of space in the Headquarters building, 26,000
square feet in Station Place 1 and 14,000 square feet in Station Place 2. We
were informed that the construction was on schedule and was to be completed
by March 2009. Another separate contract for construction administration was
awarded to Matrix Settles, the architect on the restacking project with PSG, for
$84,150.

The initial government estimate for the restacking project was $2,332,000. This
total included $832,000 for program management and $1,500,000 for moving
services. Moving services were estimated at $600 per person for 2,500 people.
The initial estimate included no construction costs, and the restacking project
was supposed to have been completed in one year. The amount obligated as of
February 2009, including construction costs, was approximately $3.19 million, 15
although documents we obtained showed that anticipated construction costs
were reduced during the course of the project, lowering the estimated total
project costs from approximately $4.6 million to approximately $3.9 million. Also,
the project completion date has been moved back nine months -- from
September 2008 to June 2009.


Objectives
Objectives. The objectives of our review were to assess whether the restacking
project was conducted in accordance with applicable policies and procedures,
and whether an appropriate analysis or study was conducted to determine if the
restacking project was cost effective and beneficial to the agency.




as it was originally planned that the landlord would retain the construction contractor. After the
negotiations failed, the SEC was required to enter into a contract for the project construction.
15
   Of this amount, approximately $1.84 million in costs have been incurred by the overall project
manager, PSG, and the architect, Matrix Settles; the remaining $1.35 million in costs have been
incurred by QSSI, the construction contractor.

Review of the Commission’s Restacking Project                                        March 31, 2009
Report No. 461
                                                Page 5
              Findings and Recommendations
Finding 1: The OIG Survey Showed that the
Headquarters Configuration Prior to the
Restacking Project Was Not Necessarily
Undesirable and that the Restacking Project
Has Not Made a Meaningful Improvement in
Communication Among or Productivity of the
Staff
                 Our survey of Commission staff indicated that overall,
                 Commission staff were satisfied with their space
                 configuration prior to the restacking project and do not
                 believe the project has resulted in more desirable
                 office space, has improved communications or
                 effectiveness, or was worth the time and cost of the
                 restacking.

The Purpose of the Restacking Project

The Office of Administrative Services (OAS) informed Commission staff that the
purpose of the restacking project was to “… realign [d]ivisions/[o]ffices
‘horizontally’ at Station Place to promote internal communications and improve
operational effectiveness for the Commission.” 16 According to a newsletter
provided to Commission staff in connection with the restacking project, divisions
and offices were frustrated by the time it took to communicate with people in their
own divisions and offices. 17 A significant anticipated result of the restacking
would be to consolidate the divisions and offices into contiguous space so
communication would be more efficient. According to a subsequent newsletter,
locating divisions and offices together would also lead to improved efficiency and
productivity. 18

In the absence of documented analyses to support the assertions that restacking
would promote internal communications and improve operational effectiveness
for the SEC, we surveyed Commission staff for their reactions to the restacking in
terms of the goals to improve communications and efficiency and effectiveness.


16
   Restacking Project – Restacking Purpose and Scope, located on the Commission’s Insider
webpage.
17
   “The Restacker,” Volume 1, Issue 1, September 10, 2008, page 2.
18
   “The Restacker,” Volume 1, Issue 2, October 3, 2008, page 2.

Review of the Commission’s Restacking Project                                   March 31, 2009
Report No. 461
                                                Page 6
The OIG Survey Questionnaire to Commission Staff

We distributed our questionnaire to 2,164 Commission headquarters staff at
Station Place buildings 1 and 2, and the Operations Center. We included staff
who were not impacted by the restacking to provide them with an opportunity to
express their views. However, we eliminated these responses from our survey
results whenever necessary (e.g., by using questionnaire responses such as
“Not Applicable,” or “…did not move.”). A total of 1,150 staff began our survey
and 1,065 (92.6%) “completed” it. 19

The Methods of Communication Most Frequently Used by SEC Staff

Our review found that the restacking project was primarily initiated because
senior staff members believed that communication among staff was impaired by
the “vertical” configuration of the Station Place buildings. In our survey, we
asked staff about the methods of communication they most often used to
communicate with both non-management and management staff.

To determine the methods by which staff most often communicated with each
other, Question 15 of our survey asked the staff to rank the methods of
communication in terms of most or least often used to communicate with non-
management staff. Ratings ranged from 1 (Least Often) to 4 (Most Often).

Table 1: Q. 15 - Ranking of Methods of Communication Most or Least Often
Used to Communicate With Non-Management Staff
Number of Responses: 1,071
               E-Mail      Face-to-             Telephone MicroSoft           Fax
               (Includes   Face                 (Includes SharePoint 20
               Blackberry)                      Mobile
                                                Phones)

 Average
 Rating        3.33             2.98            2.62         1.13             1.08
Source: OIG Generated

Similarly, question 16 of our survey asked the staff to rank the methods of
communication in terms of most or least often used to communicate with
management staff. Ratings ranged from 1 (Least Often), to 4 (Most Often).




19
   For the purposes of our survey, “completed” only means that the recipient clicked on the “done”
button at the end of the questionnaire; all of the questions may or may not have been answered.
20
    Microsoft SharePoint is a browser-based collaboration and document management platform
that can be used to host web sites that access shared workspaces and documents.

Review of the Commission’s Restacking Project                                        March 31, 2009
Report No. 461
                                                Page 7
Table 2: Q. 16 - Ranking of Methods of Communication Most or Least Often
Used to Communicate With Management Staff
Number of Responses: 1,073
                  E-Mail           Face-to-Face      Telephone     MicroSoft      Fax
                  (Includes                          (Includes     SharePoint
                  Blackberry)                        Mobile
                                                     Phones)


 Average          3.34             2.98              2.43          1.09           1.05
 Rating
Source: OIG Generated

The survey results indicated that the SEC staff communicated most often via
e-mail and utilized the telephone quite a bit as well. Although survey participants
did rank face-to-face meetings as the second highest communications medium,
the survey results indicated that the physical location of staff is not as important
when they use e-mail and telephone to communicate. Staff who are not closely
located together may send an e-mail or call each other to communicate, which is,
for example, what telecommuters must do to communicate with their co-workers
and managers.

In addition to providing ratings of various communications methods, the survey
afforded staff the opportunity to provide written comments. Several of the 232
comments from staff regarding the impact of the restacking on communications
(submitted in response to survey question 12) also conveyed the opinion that
staff effectively utilize the telephone and e-mail to communicate, or that face-to
face communications are not critical to job performance. These comments
included the following statements:

    •   Since most communications seems to be by phone and e-mail, the
        rationale for this project seems unsupportable. I was at DOJ in a
        building in which the attorneys in our office were in offices on five
        different floors of the building. It is really not that difficult to take the
        elevator from one floor to another if you must have a face-to-face
        meeting with someone.

    •   ... Most people communicate by email anyway. An office mate
        across the hall, email [sic] me rather than coming over and talking.
        Most employees telework. ...

    •   I work at home 3 days a week and talk to very few people during
        the 2 days per week that I’m in the office as my job does not require
        it. ...




Review of the Commission’s Restacking Project                                  March 31, 2009
Report No. 461
                                                Page 8
Thus, our survey found that email, not face to face meetings, is the most
frequently used method of communication among staff, and that email and
telephone, as well as face to face meetings, are frequently-used communication
methods.

Staff Satisfaction with Communication Before and as a Result of the
Restacking

As noted above, the newsletter provided to Commission staff in connection with
the restacking indicated that divisions and officers were frustrated by the amount
of time it took to communicate with staff in their own divisions and offices. 21
Accordingly, we surveyed the staff to determine the level of satisfaction among
the staff regarding communication both prior to and as a result of the restacking
project. Question 13 of our survey asked: “How do you feel about the time it
took to communicate with staff (non-management and management) in your
organization before the restacking project began?”

Table 3: Q. 13 - How do you feel about the time it took to communicate with
staff (non-management and management) in your organization before the
restacking project began? Number of Responses: 745
                        Somewhat         Somewhat             Very
 Very                   Satisfied        Dissatisfied         Dissatisfied
 Satisfied

 25%                    41%              21%                  13%
Source: OIG Generated


The responses above suggest that a considerable majority of the staff (66%)
were satisfied with communications before the restacking. To compare,
Question 14 asked: “How do you feel about the time it now takes to
communicate with staff (non-management and management) in your
organization since moving to your permanent new workspace?” The
percentages of staff who were satisfied or dissatisfied with communications after
moving to permanent workspace were as follows:




21
     “The Restacker,” Volume 1, Issue 1, September 10, 2008, page 2.

Review of the Commission’s Restacking Project                                March 31, 2009
Report No. 461
                                                Page 9
Table 4: Q. 14 - How do you feel about the time it now takes to
communicate with staff (non-management and management) in your
organization since moving to your permanent workspace? Number of
Responses: 392 22
 Very                   Somewhat         Somewhat                Very
 Satisfied              Satisfied        Dissatisfied            Dissatisfied

 22%                    46%              17%                     15%
Source: OIG Generated


While 68% of the staff who responded to this question were either “very
satisfied,” or “somewhat satisfied” with the communication in their organizations
after moving to new permanent workspace, the survey found that a similar
percentage (66%) were satisfied with their communications before they moved.
These results suggest that, for the staff who responded to this question, the
restacking had little impact on their satisfaction with communications in their
organizations. This view was supported by some of the comments we received
from the survey participants (e.g., “Most of my communications are with the
people w/in my AD group, and we currently all sit near each other, and will
continue to sit near each other in the future. ... ”; “Just because we are in the
same office doesn’t mean [communication] is better. Sometimes you work with
other offices and it is better to be on the floor with the office you work with rather
than the office you work for.”). Some staff even indicated communication would
be worse after the restacking (e.g., “The supervisors who I routinely meet with
are closer to me now, one floor right above me, than they will be when we are all
on the same floor”; “As a result of the restacking, our group will be much more
spread out and so communication within our group will be worse not better. ... ”).

Our survey results do not appear to contradict entirely the assertion that divisions
and offices were sometimes frustrated by the time it took to communicate with
people in their own divisions (34% of the staff who responded to Question 13
were either “very dissatisfied,” or “somewhat dissatisfied” with communications
before the restacking project). However, the survey results suggested that the
restacking had little impact on this issue (32% were either “very dissatisfied,” or
“somewhat dissatisfied” after they moved).

22
   According to management, only 215 staff members had been moved to permanent space as of
March 12, 2009. However, most, if not all, staff who are moving to new permanent space as part
of the restacking project are already aware of their new office locations. Moreover, another
question in the survey (Question 12) produced similar results to those of Question 14. Question
12 inquired, “In your opinion, to what extent will the purposes of the restacking project of aligning
SEC staff from the same offices and divisions on the same floor (horizontally) help to improve
communication in your office/division?” Of the 1,031 staff who responded to this question, the
highest percentage (48%) felt the restacking would improve communications “to little or no
extent”; 22% felt it would improve communications “somewhat”; 17% felt it would improve
communications “to a great extent”; and only 8% felt it would improve communications “to a very
great extent.” In addition 4% felt the restacking would actually harm communications.

Review of the Commission’s Restacking Project                                          March 31, 2009
Report No. 461
                                                Page 10
Staff’s Satisfaction with Previous Space Before and as a Result of the
Restacking

The restacking project’s intent (to relocate staff to improve communications,
productivity and effectiveness) implies that the staff were dissatisfied with their
current locations and, therefore, improvements were needed. To determine the
extent to which the staff believed their spaces needed improvement, Question 17
of our survey asked: “How did you feel about the location of your workspace
before the restacking project was initiated?” The percentages of staff who were
satisfied or dissatisfied with the location of their previous workspaces are as
follows:

Table 5: Q. 17- How did you feel about the location of your workspace
before the restacking project was initiated? Number of Responses: 1,043
                    Somewhat             Somewhat         Very
 Very               Satisfied            Dissatisfied     Dissatisfied
 Satisfied


 57%                32%                  7%               4%
Source: OIG Generated

The responses above suggest that the overwhelming majority of staff (89%) were
satisfied with their spaces before the restacking, with a sizeable majority (57%)
being very satisfied. To compare, Question 19 asked: “How do you feel about
the location of your permanent new workspace?” The percentages of staff who
were satisfied or dissatisfied with the location of their permanent new
workspaces were as follows:

Table 6: Q. 19- How do you feel about the location of your permanent new
workspace? Number of Responses: 615
                    Somewhat             Somewhat         Very
 Very               Satisfied            Dissatisfied     Dissatisfied
 Satisfied

 24%                36%                  21%              18%
Source: OIG Generated

These results suggest that the staff were actually more satisfied with their
workspaces before the restacking (89%) than after they moved to permanent
new workspaces (60%). Also, the percentage of staff who were “very satisfied”
decreased sharply for the new permanent workspaces (from 57% before to 24%
afterward). Also, the percentage of staff who were “very dissatisfied” rose
significantly for the new permanent workspaces (from 4% before to 18%
afterward).




Review of the Commission’s Restacking Project                            March 31, 2009
Report No. 461
                                                Page 11
Perceived Productivity of Staff Before and as a Result of the Restacking

As noted above, according to the “Restacker” newsletter, the restacking was
expected to lead to improved efficiency and productivity. 23 This implies that the
previous workspaces needed improvement because they impeded productivity of
the workforce.

To determine whether the staff felt that their previous workspaces impeded
productivity, Question 24 of our survey asked: “To what extent did having the
alignment in place prior to the restacking project impede your organization’s
productivity?” The percentages of staff who believed their previous workspaces
impeded productivity were as follows:

Table 7: Q. 24- To what extent did having the alignment in place prior to the
restacking project impede your organization’s productivity? Number of
Responses: 685
 To a Great           To Some            To Little or No
 Extent               Extent             Extent


 7%                   26%                68%
Source: OIG Generated

The survey revealed that a large majority of the staff (68%) felt that the alignment
in place prior to the restacking had not impeded their productivity much, if at all.
While 33% of the survey participants stated that their productivity had been
impeded, only 7% felt that their previous workspaces impeded productivity to a
great extent.

To determine how the staff felt about productivity as a result of the restacking, we
asked the staff about both the move to temporary space and the subsequent
move to permanent workspace. Question 25 of our survey asked: “How has the
move to your temporary workspace impacted your productivity?”

Table 8: Q. 25- How has the move to your temporary workspace impacted
your productivity? Number of Responses: 218
 Greatly             Increased           No Noticeable       Decreased      Greatly
 Increased           Productivity        Impact on           Productivity   Decreased
 Productivity                            Productivity                       Productivity


 1%                  8%                  59%                 26%            6%
Source: OIG Generated




23
     “The Restacker,” Volume 1, Issue 2, October 3, 2008, page 2.

Review of the Commission’s Restacking Project                                 March 31, 2009
Report No. 461
                                                Page 12
To obtain the staff’s views on the impact of the move to permanent space on
productivity, Question 26 of our survey asked: “How has the move to your
permanent new workspace impacted your productivity?”

Table 9: Q. 26- How has the move to your permanent new workspace
impacted your productivity? Number of Responses: 155
 Greatly            Increased            No Noticeable    Decreased        Greatly
 Increased          Productivity         Impact on        Productivity     Decreased
 Productivity                            Productivity                      Productivity


 4%                 12%                  65%              14%              6%
Source: OIG Generated

These results suggest that the staff believe the move to temporary workspace
had decreased their productivity (32%) to a much greater degree than it
increased (9%) it. These results further suggest that slightly more staff actually
felt that their productivity decreased (20%) as a result of the move to permanent
new workspace than believed the project increased (16%) it. In addition, the
largest percentages of staff who responded indicated that neither their temporary
nor their permanent workspaces made a noticeable difference in productivity
(59% for temporary workspaces and 65% for permanent workspaces). Thus, the
survey results raise serious questions concerning whether the restacking project
has actually improved productivity.

Perceived Effectiveness and Efficiency Before and as a Result of the
Restacking

To determine how staff felt about the impact of the restacking on effectiveness
and efficiency in their organizations, Question 28 of our survey asked: “In your
opinion, to what extent will the alignment after the restacking project help to
improve the effectiveness and/or efficiency of your office/division?” The results
were as follows:

Table 10: Q. 28- In your opinion, to what extent will the alignment after the
restacking project help to improve the effectiveness and/or efficiency of
your office/division? Number of Responses: 554
 Will Improve        Will Improve        No Noticeable    Will Decrease    Will Decrease
 Effectiveness/      Effectiveness/      Impact on        Effectiveness/   Effectiveness/
 Efficiency to       Efficiency to       Effectiveness/   Efficiency to    Efficiency to
 a                   Some Extent         Efficiency       Some Extent      a Great
 Great Extent                                                              Extent


 9%                  25%                 51%              10%              5%
Source: OIG Generated




Review of the Commission’s Restacking Project                                March 31, 2009
Report No. 461
                                                Page 13
The survey results found that a certain percentage of the staff (34%) believed
that the alignment after the restacking would improve effectiveness or efficiency.
However, the results also revealed that a considerably larger percentage of the
staff (51%) indicated that the restacking would have no noticeable impact on
effectiveness or efficiency, and that an additional 15% of the staff actually felt the
restacking project would decrease effectiveness or efficiency.

Communication of the Purpose of the Restacking

In one area, communication about the purpose of the restacking project, the staff
did provide positive feedback with regard to the restacking. Question 11 of our
survey asked the staff: “How well was the purpose of the restacking project
communicated to you?” Our results were as follows:

Table 11: Q. 11- How well was the purpose of the restacking project
communicated to you? Number of Responses: 1,038

 Very Well          Well                 Not Very Well    Not At All

 18%                44%                  30%              8%
Source: OIG Generated

The survey results indicated that, most of the staff (62% vs. 38%) felt that the
purpose of the restacking project was well communicated. Some of the written
comments we received on this topic were as follows:

    •   Excellent email communication. Excellent feedback when needed
        to contact restacking team with questions. Immediate response.

    •   The OAS team had multiple planning meeting[s] to discuss move
        related issues. In addition, OHR staff had dedicated meetings to
        discuss the impact and held an open house event when temp
        moves occurred so that new office locations would be known.

    •   The purpose of the restacking was communicated to me very well.
        In fact, there was too much communication on this project....

    •   DIAC (the Disability Issues Advisory Committee) was well informed.

    One survey participant observed, however, “The overall purpose of the
    project was explained, but the specific purpose of my AD group's move was
    never explained. ... The purpose of our move remains a mystery.” Another
    participant pointed out: that there was no communication to solicit the staff’s
    views on the project before it was undertaken, stating:



Review of the Commission’s Restacking Project                             March 31, 2009
Report No. 461
                                                Page 14
        ... [A]ll [communication] was AFTER THE FACT. Staff was not
        given any chance to speak on this before it was decided.
        Taxpayers should be outraged, and we should be wholly mortified,
        to be wasting such an incredible amount of money and time on this
        - not the least of which includes large-scale construction on a
        building already over-budget.


Staff Views on Whether the Restacking Project Was Worth the Costs and
Disruption

The survey also attempted to determine whether the staff felt, on the whole, the
benefits of the restacking project outweighed the costs of and the disruption
caused by the project. Question 31 of on survey asked: “In your opinion, are the
restacking project benefits to your office/division worth the cost and time that it
has taken for construction, packing, moving, and unpacking, etc.?”

Table 12: Q. 31- In your opinion, are the restacking project benefits to your
office/division worth the cost and time that it has taken for construction,
packing, moving, and unpacking, etc.? Number of Responses: 607

 Yes          No

 19%          81%
Source: OIG Generated

These results suggest that the overwhelming majority of Commission staff (81%)
did not feel that the restacking project was worthwhile because the negatives of
the project outweighed the benefits. Many of the numerous written comments
that we received from the survey presented this very sentiment. The following is
just a sample of the comments we received:

    •   It is very expensive and disruptive to move so many people. It is a
        waste of taxpayer’s money. It also makes the agency look wasteful.

    •   ... This appears to me to be nothing more than a land grab by
        divisions that want better office space. In this period of austerity, it
        is remarkable to me that the Commission would spend millions of
        dollars on a completely unnecessary move.

    •   ... This has been the biggest waste of American people's tax
        dollars. The Commission should be embarrassed with what they
        have chosen to spend their time and money on.




Review of the Commission’s Restacking Project                               March 31, 2009
Report No. 461
                                                Page 15
    •   ... I do not expect any benefits to my office/division to result from
        the restacking project and thus it will not be worth the cost and
        time.

    •   This is a waste of taxpayers' money. It would be more beneficial to
        the staff to have to walk or go up or down a flight of stairs to speak
        to other members of their Division; we could all use some exercise.

    •   Again, it is appalling how much time and energy are being wasted
        in this process. I am sure it is a staggering total in terms of the
        days of productive work lost ... all so we can engage in musical
        chairs as the markets and our institutional reputation sink ....

    •   ... [W]hile I haven't moved yet, I do not think that communications
        will substantially change with the move and therefore do not think
        the move is justified based on the millions of dollars it has been
        reported it is costing. In my personal case, I will be further from my
        supervisors and while I sometimes would just walk upstairs to see if
        they were available to talk I will make sure to e-mail or call them
        first before walking over.

    •   In the end, there may be some benefits. However, the move to
        "temporary" space, only to have to move again in 2-3 months
        seems like duplicate work. Before restacking, the organization was
        split in different locations and so communication was challenging.
        After the restacking, we're still in different locations -- the "different
        locations" shifted, but the outcome didn't improve anything.
        Restacking = good intentions -- not well implemented. I think it
        would have been more effective to try and move organizations only
        1 time, instead of 2 or 3 times.

    •   This project is an absolute waste of time and money. ... Just
        because the previous idea to commingle the Divisions was an error,
        it does not resolve that error by trying to change it. Two wrongs do
        not make a right. ...

    •   Huge and obvious waste of resources in our technological age
        where people can easily communicate without being seated next to
        one another – what a tremendous waste!

    •   ... It has been a grave waste of taxpayer money at a time when we
        cannot afford to waste anything. That money could have gone to
        other uses here at the Commission.




Review of the Commission’s Restacking Project                                March 31, 2009
Report No. 461
                                                Page 16
    •   ... This is a total waste of time we should be spending conducting
        investigations. ...

    •   I think it is a complete waste of money and time. I interact with a lot
        of people in my position and I haven’t found one individual that is
        happy about the restacking.

    •   The cost far exceeds any benefits.

We conclude based upon the survey results that the restacking project was
initiated without taking into account the views of Commission staff. The staff
indicated in our survey that they were largely satisfied with their current office
locations and the survey showed that, for the most part, the staff felt the
restacking project did not provide any tangible benefits to them.

Moreover, while significant resources have been devoted to the restacking
project, very few of the Commission staff who responded to our survey felt it was
worth the costs. Overall, the restacking project was very unpopular with the staff
who responded to our survey, including staff who have already moved and staff
who are scheduled to move. Thus, the restacking project at a total estimated
cost of approximately $3.9 million does not appear at this point to have achieved
its intended objectives or been worth the cost.

Recommendation 1:

The Office of Administrative Services should carefully review the results of the
OIG survey to determine whether the restacking project should continue in its
current form or any changes should be made to the project based upon the
survey responses, and to ensure better planning and foresight in any future
similar projects.

Recommendation 2:

The Office of Administrative Services should conduct another survey of the staff
after the restacking process has been completed to understand the effects and
impacts of the project better and determine what, if any, changes should be
implemented.




Review of the Commission’s Restacking Project                             March 31, 2009
Report No. 461
                                                Page 17
Finding 2: The SEC Did Not Comply with
OMB Circular, A-11, Part 7, and Did Not
Perform Sufficient Analysis to Support the
Decision to Approve the Restacking Project.
        The SEC failed to comply with OMB Circular, A-11, Part 7’s
        requirement that an Exhibit 300 (Capital Asset Plan and Business
        Case Summary) be submitted providing analysis and justification in
        support of major capital projects such as the restacking project. No
        business case was made for the investment, and no effort was
        made to quantify whether the restacking project would actually
        improve productivity or whether the project was worthwhile given
        the cost and disruptive effect on Commission staff. No formal cost-
        benefit analysis was conducted, although two memoranda indicated
        that the Chairman had requested one.

OMB Circular A-11, Part 7

Office of Management and Budget (OMB) Circular A-11, Part 7, Section 300 (in
effect at the time the restacking project was approved) established policies for
planning, budgeting, acquisition and management of Federal capital assets. 24
According to this OMB Circular, capital assets includes land, structures and
equipment, as well as intellectual property and information technology “that are
used by the Federal government and have an estimated useful life of two years
or more.” 25

The OMB Circular provided that the policy and budget justification and reporting
requirements in Section 300 applied to all agencies of the Executive Branch of
the Government that were subject to Executive Branch review. 26 Further, the
Circular stated, “All major investments must submit an Exhibit 300 in accordance
with this section.” 27 According to the Circular, Exhibit 300 is a format for
demonstrating to agency management and OMB that the project team has
“employed the disciplines of good project management, represented a strong
business case for the investment, and met other Administration priorities to
define the proposed cost, schedule, and performance goals for the investment if


24
   OMB Circular A-11, Part 7, Section 300 -- “Planning, Budgeting, Acquisition, and Management
of Capital Assets”, July 2003. This section was revised in June 2008. Unless noted otherwise,
the citations in this report refer to the 2003 version of the section.
25
   OMB Circular A-11, Part 7, at § 300.4.
26
   OMB Circular A-11, Part 7, at § 300.2. Section 25 of the OMB Circular prescribed the agencies
that were exempt from this review. The SEC was not one of these exempted agencies. OMB
Circular A-11, Part 2, at § 25.1.
27
   OMB Circular A-11, Part 7, at § 300.2.

Review of the Commission’s Restacking Project                                     March 31, 2009
Report No. 461
                                                Page 18
funding approval is obtained.” 28 “Exhibit 300 consists of two parts, each of which
is designed to collect information that will assist agency management and OMB
during budget review.” 29 The information collected on Exhibit 300 is used,
among other things, to “[e]nsure that spending on capital assets directly supports
[the] agency’s mission and will provide a return on investment equal to or better
than alternate uses of funding ....” 30 The GAO has recognized that “Exhibit 300
is required by OMB.” 31

According to the version of Section 300 of OMB Circular A-11, Part 7, that was in
effect when the restacking project was initiated, a “major acquisition” was defined
as “a capital project (investment) that requires special management attention
because of its: (1) importance to an agency’s mission; (2) high development,
operating, or maintenance costs; (3) high risk; (4) high return; or (5) significant
role in the administration of an agency’s programs, finances, property, or other
resources.” 32 It further provided that “[t]he agency’s documented capital
programming process should include the criteria for determining when an
investment is classified as major.” 33

The Capital Programming Guide

OMB issued a Supplement to Part 7 of OMB Circular A-11, entitled the “Capital
Programming Guide,” which was intended to assist Federal agencies effectively
plan, procure and use capital assets to achieve the maximum return on
investment. 34 The stated purpose of the Capital Programming Guide ”is to
provide professionals in the Federal Government guidance for a disciplined
capital programming process, as well as techniques for planning and budgeting,
acquisition, and management and disposition of capital assets.” 35



28
   OMB Circular A-11, Part 7, at § 300.7
29
   OMB Circular A-11, Part 7, at § 300.7.
30
   OMB Circular A-11, Part 7, at § 300.7. Exhibit 300 is not limited to Information Technology
projects; the prior version of the form asked whether or not the investment was for information
technology. The newer version of the form, at Question 12b, specifically asks whether the
investment is “for new construction or major retrofit of a Federal building or facility.” Also, we
noted that other agencies, e.g., the Department of Homeland Security, the Department of Justice
and the Department of Labor, have submitted Exhibit 300 forms for facility construction projects.
31
   GAO-04-138, “Budget Issues: Agency Implementation of Capital Planning Principles Is Mixed,”
January 2004.
32
   OMB Circular A-11, Part 7, at § 300.4. The more recent version of this OMB Circular defined
“major investment” specifically to include a system or acquisition that “is for financial management
and obligates are than $500,000 annually.” OMB Circular A-11, Part 7, at § 300.4 (June 2008).
In all other relevant respects, the definitions of the term in the two versions of the Circular are
similar.
33
   OMB, Circular A-11, Part 7, at § 300.4.
34
   Capital Programming Guide (v.2.0), Supplement to Office of Management and Budget Circular
A-11, Part 7, Planning, Budgeting and Acquisition of Capital Assets (June 2006.)
35
   OMB Capital Programming Guide, page 1.

Review of the Commission’s Restacking Project                                        March 31, 2009
Report No. 461
                                                Page 19
The Capital Programming Guide further states that agencies “should use this
Guide to help establish a capital programming process within each component
and across the organization.” 36 It notes that “[e]ffective capital programming
uses long range planning and a disciplined, integrated budget process as the
basis for managing a portfolio of capital assets to achieve performance goals
with the lowest life-cycle costs and least risk.” 37 OMB strongly encourages
agencies to use the guidance contained in the Capital Programming Guide but
does not require it. 38

The Capital Programming Guide contains specific guidance to agencies in
implementing processes to address project prioritization to improve the accuracy
of cost, schedule and performance information and to address other challenges
in asset management and acquisition. 39 This guidance includes directions
pertinent to cost benefit analyses, 40 evaluation of alternatives, 41 and an
executive review process. 42

In particular, the Capital Programming Guide provides that the fundamental
method for a formal economic analysis of a project is the benefit-cost analysis. 43
The Guide outlines the following steps that are included in a benefit-cost
analysis: (a) identifying assumptions and constraints; (b) identifying and
quantifying benefits and costs, in monetary terms wherever possible, and with
sufficient detail that is commensurate with the size and criticality of the
investment, including making estimates of benefits and costs of each alternative
considered; (c) evaluating alternatives using net present value, including using a
cost-effectiveness analysis to rank alternatives; and (d) performing a risk and
sensitivity analysis to identify where uncertainties exist and quantify them so their
cost can be factored into overall cost estimates. 44

The Guide encourages each agency to have an Agency Capital Plan (ACP) that
defines the agency’s long-term capital assets decisions. In that regard, the
Guide states, ”Each agency should establish a formal process for senior
management to review and approve the capital assets that make up the ACP
before the plan is presented to the agency chief executive for approval.” 45


36
   OMB Capital Programming Guide, page 1.
37
   OMB Capital Programming Guide, page 1.
38
   U.S. General Accounting Office Report to the Subcommittee on Government Efficiency and
Financial Management, Committee on Government Reform, House of Representatives: GAO-04-
138, “Budget Issues-Agency Implementation of Capital Planning Principles is Mixed,” January
2004, page 12.
39
   Capital Programming Guide, page 1.
40
   Capital Programming Guide, page 14.
41
   Capital Programming Guide, page 23.
42
   Capital Programming Guide, page 24.
43
   Capital Programming Guide, page 18.
44
   Capital Programming Guide, page 18.
45
   Capital Programming Guide, page 24.

Review of the Commission’s Restacking Project                                March 31, 2009
Report No. 461
                                                Page 20
Although OMB Circular A-11, with implementing guidance, prescribe specific
procedures and processes for Federal agencies to follow when they undertake
major investments and acquisitions, our review found that the SEC did not
employ any of the prescribed procedures, or undertake any formal analysis or
evaluation at all, when it decided to go forward with the restacking project. In
addition, there was little documentation to support the basis for this very large
project.

Lack of Documentation and Analysis for the Restacking Project

As part of our review, we requested from multiple sources within the SEC
documentation of cost-benefit analyses and/or other project justifications in
connection with the decision to initiate the restacking project. This
documentation should provide a formal justification for the decision to initiate the
restacking. We also requested a copy of the written request for the project.

The SEC staff, including those from the OAS Office of Real Property and
Facilities Support who were responsible for managing the restacking project,
could not provide any documentation supporting the decision to undertake the
project. OAS’s Real Property and Facilities Support staff indicated that they were
not aware of any cost benefit or needs analysis that were done before the
decision was made to initiate the project. OAS’s Assistant Director for Real
Property stated that she was “99% sure” that an Exhibit 300 was not completed
for the restacking project.

We found that in or about February 2007, the Chairman asked the Executive
Director to explore the idea of a restacking of Commission staff. According to
two February 26, 2007 memoranda, Chairman Cox “asked [the] Executive
Director to study and report back to [him] on the costs and benefits that would be
involved” with relocating divisions and offices within the Commission.

There is no record, however, of the Executive Director actually conducting a cost-
benefit analysis or feasibility study, although the Executive Director stated that
the monetary costs of the move were analyzed and discussed verbally in senior
staff and other meetings. The Executive Director also noted that a feasibility
study was not conducted because the benefits of conducting the restacking were
deemed to be significantly greater than the project’s anticipated one-year cost,
although it is unclear how the Executive Director arrived at this conclusion
without conducting the study. The Assistant Director for Real Property in OAS
stated that there was no cost benefit analysis performed, no alternatives to
restacking were considered, 46 and the SEC staff were not contacted to

46
  As noted above, the Executive Director stated that the alternative of doing nothing was
considered and rejected, as were the alternatives of “maintaining the status quo with variations,
such as additional training to somehow compensate for the problems caused by the office layout,”
or consolidating only some offices and leaving others where they were. Response of the

Review of the Commission’s Restacking Project                                      March 31, 2009
Report No. 461
                                                Page 21
determine if they were in favor of the restacking. There was also no documented
request for the restacking project although, according to the Executive Director,
the normal procedure in setting budget priorities was for the Chairman’s direction
to be made verbally.

According to information obtained during the review, the former head of OAS was
not in favor of the project, as she felt that there were several other projects that
should be implemented ahead of the restacking project. We were also informed
that the decision to proceed with the restacking was dictated from above (either
the Chairman’s Office or the Executive Director’s office), and OAS was given
“marching orders” to go forward with the project.

OAS provided the OIG with two memoranda from the Office of the Executive
Director as documentation to support approvals for the restacking project. One
memorandum, dated March 18, 2008, provided approvals for the PSG and Matrix
Settles floor plans for the restacking. 47 Another memorandum dated May 20,
2008 approved PSG’s construction budget and project schedule. 48 Both
memoranda referenced a “coordinated review” by the Executive Director and the
Chairman’s Office “ensure SEC mission effectiveness.” However, we were
provided with no documentation of that review in response to our requests for
such documents. In addition, we found no references to the restacking project in
the Commission’s 2008 or 2009 Congressional budget justification submissions.

In light of the foregoing, the OIG’s review found that the SEC failed to comply
with OMB Circular A-11, Part 7, in connection with the restacking project. Given
the significance of the project to the SEC and its importance to the
accomplishment of the agency’s mission, we believe it would have qualified as a
major acquisition pursuant to the version of the OMB Circular A-11, Part 7, in
effect at the time of the restacking project, requiring the completion and
submission of an Exhibit 300. 49

The SEC has maintained that the complaints that triggered the restacking project
were “conveyed strongly and frequently,” 50 and the “Restacker” newsletter
referenced the anticipated impact of the restacking as “strengthening the identity
of the organization for internal and overall benefit.” 51 However, the SEC did not
complete or submit to OMB an Exhibit 300 and did not even document whether


Executive Director to OIG Questions Concerning the Restacking Project, page 3. We were
provided with no contemporaneous written analysis of alternatives, however.
47
   Memorandum to File from Diego Ruiz, Executive Director, subject: SEC Approval of
Restacking Program, March 18, 2008.
48
   Memorandum to File from Diego Ruiz, Executive Director, subject: SEC Approval of Restacking
Construction Budget & Project Schedule, May 20, 2008.
49
   Clearly under the OMB Circular A-11, Part 7 in effect currently, the restacking project would
trigger the Exhibit 300 submission because its costs exceeded $500,000.
50
   Response of Chief of Staff to OIG Questions Concerning the Restacking Project.
51
   “The Restacker,” Volume 1, Issue 1, September 10, 2008, page 2.

Review of the Commission’s Restacking Project                                     March 31, 2009
Report No. 461
                                                Page 22
the restacking project was considered a major acquisition or investment. In
addition, there is no evidence that any of the procedures outlined in the Capital
Programming Guide were followed, and no formal analysis was prepared
justifying the project. Specifically, no business case was made for the
investment, and no effort was made to quantify whether the restacking would
actually improve productivity, or whether the project was worthwhile given the
high cost and disruptive effect on Commission staff. Further, no formal cost-
benefit analysis was conducted, although two memoranda indicated that the
Chairman had requested one.

Moreover, no effort was made to determine if the existing space configuration
was actually impeding productivity, and we obtained information showing that the
project was approved against the wishes of the former head of OAS and without
soliciting the views of Commission staff. It is difficult to comprehend how the
SEC could have initiated the restacking project without first consulting with the
staff located in the headquarters facility in light of the GAO’s previous
recommendation that the SEC improve communication and consultation with
staff regarding space and property needs.

Recommendation 3:

Given that the restacking project has not been completed, the Office of
Administrative Services should conduct appropriate analysis and complete and
submit to the Office of Management and Budget an Exhibit 300 for the remainder
of the project, incorporating the guidelines of the Capital Programming Guide and
the information provided in our review.

Finding 3: The SEC Does Not Have Sufficient
Policies and Procedures in Place to Ensure
that Major Capital Projects Like the
Restacking Project are Adequately Analyzed
and Supported.
Executive Order 13327

Executive Order 13327 issued by President George W. Bush on February 4,
2004, provides that it “is the policy of the United States to promote the efficient
and economical use of the America’s real property assets and to assure
management accountability for implementing Federal real property management
reforms.” 52 The Executive Order further states, “Based on this policy, executive
branch departments and agencies shall recognize the importance of real property

52
     EO 13327, Feb. 4, 2004, at § 1.

Review of the Commission’s Restacking Project                          March 31, 2009
Report No. 461
                                                Page 23
resources through increased management attention, the establishment of clear
goals and objectives, improved policies and levels of accountability, and other
appropriate action.” 53

The Commission’s Unsigned Space Management Regulation, SECR 5-8

The OIG review was unable to locate any final, signed policies or procedures
governing space management at the Commission. The only documented
policies and procedures are contained in the Commission’s space management
regulation, SECR 5-8, dated August 18, 2005, which is unsigned and does not
appear on the Commission’s Insider webpage among the agency’s administrative
regulations.

While this unofficial document purports to establish the SEC’s assignment and
utilization of space program and indicates that its purpose is to ensure that the
Commission’s spaces support the mission of the agency and enhance the
productivity of its employees and programs, 54 there are very limited actual
requirements in this document.

SECR 5-8 does cite a number of pertinent authorities, define a number of space
planning terms and provide general guidance for acquiring and allocating office
space. 55 SECR 5-8 also requires decisions regarding siting new office space
and facilities in rural and urban areas, and on historic properties, and prescribes
procedures for field office space requests. 56 With respect to space requests
applicable to SEC headquarters facilities, however, SECR 5-08 merely provides
that “all leasehold improvements must be approved by the OAS [Associate
Executive Director (AED)].” 57 It further provides, “Construction, equipment
installation and furniture placement will be overseen by the OAS AED or
designee.” 58

Information Technology Capital Planning Policies and Procedures

In contrast to the sparse procedures and guidance for facility capital projects,
SEC Information Technology (IT) projects are subject to a formal capital planning
process. 59 According to the SEC regulation applicable to IT capital projects, the
Office of Information Technology’s (OIT) capital planning and investment control
(CPIC) processes include the decision criteria used in selecting IT investments

53
   EO 13227, Feb. 4, 2004, at § 1.
54
   SEC Regulation (SECR) 5-8, “Space Management Program,” August 15, 2005 (unsigned),
page 1.
55
   See SECR 5-8, page 7 and 8, for space allocation guidelines and suitability factors
56
   SECR 5-8, pages 3-5.
57
   SECR 5-8, page 6.
58
   SECR 5-8, page 6.
59
   SEC Regulation (SECR) 24-02, Information Technology Capital Planning and Investment
Control, June 14, 2006.

Review of the Commission’s Restacking Project                                March 31, 2009
Report No. 461
                                                Page 24
and the use of defined performance measures in assessing an investment’s
progress in achieving specific outcomes. 60 OIT’s CPIC process specifically
addresses investment selection, control and evaluation, and defines the roles
and responsibilities of the various groups involved with the IT Capital Planning
process (e.g., the IT Capital Planning Committee, Information Officers’ Council,
Chief Information Officer, and Commission senior staff). 61

Inadequate Policies and Procedures for Real Property Projects

Our review concluded that the SEC has not sufficiently established heightened
management attention, clear goals and objectives, or improved policies and
levels of accountability in connection with its use of real property assets, as
envisioned by Executive Order 13327. It is particularly surprising that the SEC
would not have instituted these types of policies and procedures, given that the
$48 million in unbudgeted costs in connection with the agency’s previous moves
led the GAO to recommend that the SEC improve its procedures relating to
facilities projects.

The only existing SEC polices and procedures that would pertain to a large real
property project like the restacking project remain unsigned and fail to prescribe
any steps, other than OAS AED approval, that must be taken before this type of
project is initiated. As OMB’s Capital Programming Guide described above
stated, these steps are necessary to ensure effective capital programming that
utilizes long range planning and a disciplined, integrated budget process in order
to achieve performance goals with the lowest life-cycle costs and least risk.
Detailed procedures are also necessary to ensure that real property projects are
fully analyzed and considered before a decision is made to go forward. Given
the survey results described above, it seems quite likely that if the SEC had
engaged in some formal and comprehensive analysis of the restacking project in
advance of its undertaking, a different decision may have been made and
significant sums of money might have been saved.

Moreover, in the case of the restacking project, it is not entirely clear that even
the minimal requirement of the unsigned space management regulation was
complied with, as we were informed that the OAS AED at the time the project
was initiated did not support the restacking project. Hence, we were unable to
ascertain whether there was an OAS AED approval for the restacking project.
While it is likely that the Chairman’s decision to proceed with the project, as
communicated through the Executive Director, may have de facto been sufficient
to approve the project, the SEC nonetheless should have documented that it
complied with this single requirement of SECR 5-8.



60
     SEC Regulation (SECR) 24-02, page 2.
61
     SEC Regulation (SECR) 24-02, pages 8-10.

Review of the Commission’s Restacking Project                          March 31, 2009
Report No. 461
                                                Page 25
Recommendation 4:

The Office of Administrative Services (OAS), in coordination with the Office of the
Executive Director, should develop and adopt policies and procedures to make
its guidance for investments in space more consistent with the guidance in the
Office of Management and Budget’s Capital Programming Guide. The OAS
should also review the Information Technology Capital Planning requirements for
guidance in developing these policies and procedures.




Review of the Commission’s Restacking Project                          March 31, 2009
Report No. 461
                                                Page 26
                                                                          Appendix I


                     Abbreviations and Acronyms


ACP                      Agency Capital Plan
CIPC                     Capital Planning and Investment Control
GAO                      Government Accountability Office
IT                       Information Technology
OAS                      Office of Administrative Services
OAS AED                  Office of Administrative Services Associate Executive Director
OIG                      Office of Inspector General
OIT                      Office of Information Technology
OMB                      Office of Management and Budget
PSG                      Project Solutions Group
QSSI                     QSS International
SEC/Commission           U.S. Securities and Exchange Commission




Review of the Commission’s Restacking Project                             March 31, 2009
Report No. 461
                                                Page 27
                                                                                  Appendix II


                          Scope and Methodology
This review was not conducted in accordance with generally accepted
government auditing standards. As a review, there was no requirement to follow
generally accepted government auditing standards.

Scope. The scope of our review covered areas related to the initiation and
approval of the restacking project. We reviewed and assessed processes related
to the restacking project by obtaining information from the Office of
Administrative Services, Office of Executive Director, and the Office of the
Chairman regarding the initiation of the project. We conducted our fieldwork from
December 2008 to March 2009.

Methodology. We interviewed staff and managers in the Office of Real Property
and Facilities Support of the Office of Administrative Services (OAS) and
reviewed contract files in the Office of Acquisitions to obtain an understanding of
the process by which the restacking project was initiated. We requested and
obtained information from the Office of the Executive Director and Office of the
Chairman on the factors that led to the initiation of the restacking project. Also,
we obtained information from OAS and Office of Financial Management (OFM) to
determine the amount of funding that was provided for the restacking project.

In addition, we distributed a questionnaire to 2,164 Commission headquarters
staff at Station Place buildings 1 and 2, and the Operations Center. We included
staff who were not impacted by the restacking to provide them with an
opportunity to express their views. We eliminated these responses from our
survey results whenever necessary (e.g., by using questionnaire responses such
as “Not Applicable,” or “…did not move.”). A total of 1,149 staff began our survey
and 1,062 “completed” it. 62

Internal/Management Controls. We reviewed internal controls that were
considered significant within the context of the review objectives. We interviewed
OAS management and staff, requested information from OFM, and identified and
reviewed applicable policies and procedures. We identified areas for
improvement, as listed above.

Use of Computer-Processed Data. We used computer-processed data
regarding funding for the restacking project. We did not perform tests of system
general or application controls. We used the funding data as background to


62
  For the purposes of our survey, “completed” only means that the recipient clicked on the “done”
button at the end of the questionnaire; all of the questions may or may not have been answered.

Review of the Commission’s Restacking Project                                      March 31, 2009
Report No. 461
                                                Page 28
estimate the size of, and the amount of funding provided for, the restacking
project.

High-Risk Areas. The Government Accountability Office (GAO) identified
management of Federal real property as a high-risk area in 2003 and continues
to deem this area as high risk. (GAO-09-271, “High-risk Series; An Update,”
January 2009.) The GAO found problems with excess and underutilized
property, overreliance on costly leasing, and security challenges. The GAO has
reported that real property management problems have been exacerbated by
obstacles including competing stakeholder interests, legal and budget related
limitations, and the need for better capital planning.

Prior Audit Coverage. The OIG issued a report on Real Property Leasing,
Audit No. 330, May 31, 2001. This audit report contained several
recommendations, including: updating Commission guidance; documenting
OGC reviews of lease documents; and providing additional training to leasing
staff. The GAO issued a briefing to Congress in 2005 regarding the
Commission’s facilities management and budget issues. The GAO’s
recommendations included improved accountability for the reasonableness of
budget estimates, regular reporting of project status, and hiring of new positions
for OFM and OAS.




Review of the Commission’s Restacking Project                          March 31, 2009
Report No. 461
                                                Page 29
                                                                     Appendix III
                                           Criteria

    Executive Order 13327, Federal Real Property Asset Management,
    February 4, 2004. This Executive Order promotes the efficient and
    economical use of Federal real property assets by requiring agencies to
    recognize the importance of real property resources through increased
    management attention, the establishment of clear goals and objectives, and
    improved policies and levels of accountability.

    Office of Management and Budget Circular No. A-11, Part 7, Planning,
    Budgeting, Acquisition and Management of Capital Assets, July 2003
    and June 2008. Part 7, Section 300, establishes policy for planning,
    budgeting, acquisition and management of Federal capital assets. Section
    300 of this Part requires submission of an Exhibit 300, “Capital Asset Plan
    and Business Case,” for all major capital investments..

    Office of Management and Budget Circular No. A-11, Part 2, Preparation
    and Submission of Budget Estimates, July 2003 and June 2008. Section
    25.1 “Does Part 2 (Preparation and Submission of Budget Estimates) apply to
    me?” lists the agencies that are exempt from the policy and budget
    justification and reporting requirements of Part 7, Section 300 (e.g., the
    Exhibit 300).

    Capital Programming Guide, V2.0, Supplement to Office and
    Management and Budget Circular A-11, Part 7: Planning, Budgeting,
    and Acquisition of Capital Assets, June 2006. The Office of Management
    and Budget (OMB) issued the Capital Programming Guide to assist agencies
    plan, procure, and use capital assets more effectively. Agencies are strongly
    encouraged to use this Guide in developing their capital programming
    processes.

    Securities and Exchange Commission Regulation (SECR) 5-8, Space
    Management Program, August 18, 2005 (unsigned). SECR 5-8 purports to
    establish the Commission’s program for assigning and utilizing space, cites
    pertinent authorities, defines space planning terms and provides general
    guidance for acquiring and allocating office space.

    Securities and Exchange Commission Regulation (SECR) 24-02,
    Information Technology Capital Planning and Investment Control, June
    14, 2006. SECR 24-02 defines the Commission’s policies and processes for
    capital planning and investment control regarding major information
    technology investments.


Review of the Commission’s Restacking Project                         March 31, 2009
Report No. 461
                                                Page 30
                                                                     Appendix IV


                         List of Recommendations

Recommendation 1:

The Office of Administrative Services should carefully review the results of the
OIG survey to determine whether the restacking project should continue in its
current form or any changes should be made to the restacking project based
upon the survey responses, and to ensure better planning and foresight in any
future similar projects.

Recommendation 2:

The Office of Administrative Services should conduct another survey of the staff
after the restacking process has been completed to understand the effects and
impacts of the project better and determine what, if any, changes should be
implemented.

Recommendation 3:

Given that the restacking project has not been completed, the Office of
Administrative Services should conduct appropriate analysis and complete and
submit to OMB an Exhibit 300 for the remainder of the project, incorporating the
guidelines of the Capital Programming Guide and the information provided in our
review.

Recommendation 4:

The Office of Administrative Services (OAS), in coordination with the Office of the
Executive Director, should develop and adopt policies and procedures to make
its guidance for investments in space more consistent with the guidance in the
Office of Management and Budget’s Capital Programming Guide. The OAS
should also review the Information Technology Capital Planning requirements for
guidance in developing these policies and procedures.




Review of the Commission’s Restacking Project                          March 31, 2009
Report No. 461
                                                Page 31
                                                          Appendix V


                          Management Comments




Review of the Commission’s Restacking Project             March 31, 2009
Report No. 461
                                                Page 32
Review of the Commission’s Restacking Project             March 31, 2009
Report No. 461
                                                Page 33
Review of the Commission’s Restacking Project             March 31, 2009
Report No. 461
                                                Page 34
Review of the Commission’s Restacking Project             March 31, 2009
Report No. 461
                                                Page 35
Review of the Commission’s Restacking Project             March 31, 2009
Report No. 461
                                                Page 36
Review of the Commission’s Restacking Project             March 31, 2009
Report No. 461
                                                Page 37
Review of the Commission’s Restacking Project             March 31, 2009
Report No. 461
                                                Page 38
Review of the Commission’s Restacking Project             March 31, 2009
Report No. 461
                                                Page 39
Review of the Commission’s Restacking Project             March 31, 2009
Report No. 461
                                                Page 40
Review of the Commission’s Restacking Project             March 31, 2009
Report No. 461
                                                Page 41
                                                                     Appendix VI


        OIG Response to Management Comments


We are pleased that management appreciates the work the OIG conducted in its
review of the restacking project and our efforts to ensure that the SEC utilizes
taxpayer resources appropriately. We are also pleased that management has
concurred in full with three of our four recommendations designed to ensure that
management conducts appropriate analyses of the restacking project going
forward and for future projects that may have a significant impact on Commission
resources and staff.

We do take issue, however, with certain statements made in management’s
response. First, management claims that due to the restacking project, it was
able to terminate a lease in Virginia (for the Operations Center Annex), resulting
in annual savings of approximately $680,000 in rent, utilities and services, and
producing total estimated savings of $3.5 million over a five-year period. The
amount of claimed annual savings differs substantially from the total Annex
annual rent and operating cost figure management only recently provided to us of
$459,912. Furthermore, at the time it provided this lesser figure, management
acknowledged that it was able to realize the Annex lease savings only in part
due to the restacking project. Management now in its response inexplicably
attributes the entire savings from the termination of the Annex lease to the
restacking project.

Moreover, our review has determined that the savings resulting from the
termination of the Annex lease had little, if anything, to do with the restacking
project. We understand based upon discussions with the Office of Information
Technology project lead for the Annex closure that the lease for that facility
expired in October 2008 and the occupants – all of whom were contractors and
not SEC employees – were moved out of the Annex by May 2008. The
construction contract for the restacking was not entered into until September
2008. With the exception of less than ten contractors, the Annex occupants were
all moved not to Station Place, but to the Operations Center, which was also
being renovated. Management itself points out in its response that the
Operations Center construction was unrelated to the restacking project.
Therefore, we believe that management’s claim that it expects the restacking
initiative to more than pay for itself by making more efficient use of headquarters
office space is simply at odds with the facts.

Second, management’s position that the OIG’s report incorrectly states that the
SEC was required to submit an Exhibit 300 to the Office of Management and
Budget (OMB) for the restacking project is based on an interpretation of the

Review of the Commission’s Restacking Project                          March 31, 2009
Report No. 461
                                                Page 42
incorrect version of the applicable OMB policies contained in OMB Circular A-11,
Part 7. In its response, management claims that the OIG’s report failed to quote
certain “critical relevant sentences” from OMB Circular A-11, which provide that
OMB may work with the agency to declare other investments as major
investments and the agency should consult with its OMB representative about
which investments to consider as major or non-major. However, this language is
found only in the more recent version of Circular A-11 (issued in June 2008), not
the version in effect at the time the restacking project was undertaken (prior
version issued in July 2003). The OIG made clear in its report that, in
determining that management had not complied with the requirements of the
OMB Circular by failing to submit an Exhibit 300 to OMB, it was relying on the
version of the OMB Circular in effect at the time management initiated the
restacking.

Applying the correct version of the OMB Circular, we believe it cannot be
disputed that the SEC failed to comply with the Circular’s requirements before
initiating the restacking project. The July 2003 version of Curricular A-11
required, among other things, that the agency’s documented capital
programming process include the criteria for determining when an investment is
classified as major. Our review disclosed that, other than for information
technology capital projects, the SEC had no process in place for making these
important determinations. In fact, in its response, management acknowledges
that it only recently communicated with OMB about the requirements for the
restacking project as a result of the OIG’s review. It is clear, therefore, that
management did not discuss the classification of the project with OMB prior to
the commencement of the restacking, and no consideration was given as to what
capital planning processes should be followed before instituting the restacking.
In addition, as demonstrated in the OIG report, none of the procedures outlined
in OMB’s Capital Programming Guide (which supplements OMB Circular A-11)
were followed, no formal cost-benefit analysis was prepared justifying the project,
and there was no documented evaluation of whether the existing space
configuration was actually impeding staff productivity.

Moreover, management’s claim that relevant OMB officials represented that an
Exhibit 300 for the restacking project is presently “neither required nor requested”
requires clarification. In the course of our review, we asked management for
evidence of any such representations on the part of OMB, but management
refused to provide the requested information. We then undertook our own efforts
to contact OMB and located an OMB official who had recently spoken with the
SEC about whether OMB desired an Exhibit 300 for the restacking project. This
official made clear that her previous response to management’s inquiry was that
an Exhibit 300 was not needed for the restacking project at this time because
OMB was already fairly well along in the process for developing the President’s
Budget for Fiscal Year 2010. This official further opined that this will not be the
case in the future, during a typical budget-process year, and that OMB can work
with the SEC to determine which Exhibit 300s it should submit for Fiscal Year

Review of the Commission’s Restacking Project                           March 31, 2009
Report No. 461
                                                Page 43
2011. Moreover, the OMB official previously informed management that OMB
has in the past requested Exhibit 300s for non-IT requests from other agencies,
possibly for new capital projects.

Further, while management maintains that the Exhibit 300 is required only for
extremely large investments in the range of hundreds of millions of dollars, there
is precedent to the contrary, as the Department of Education recently submitted
an Exhibit 300 for a $5,130,000 construction project. It should also be noted that
what qualifies as a “major investment” for the SEC will, of course, naturally be
much smaller than a “major investment” for a large cabinet-level department like
DHS or DOJ. Moreover, in its communications with the SEC about Exhibit 300,
OMB did not indicate that the restacking project (at a cost of approximately $4
million over several years) was below OMB’s threshold for requiring that
document.

Third, we are surprised at management’s dismissive response to the
comprehensive survey that the OIG conducted of SEC staff to solicit their
feedback about the restacking project. Management premises its overall
disagreement with the survey on the claim that survey is deficient because it
assumes the restacking has been completed. However, this is simply not the
case. The survey itself made clear that the restacking project was ongoing, and
asked that the staff specifically indicate whether their individual moves had been
completed. In fact, question 3 of the OIG survey specifically stated, “Did/will you
move to a permanent ‘new’ workspace as a result of the restacking project?” In
addition, question 9 of the OIG survey requested information about move dates
to permanent “new” workspace and included response choices that were clearly
for future dates, e.g., July-September 2009. The survey also included several
questions seeking feedback on the move to temporary space, which would not
have been necessary if the project were complete.

Moreover, management’s implication that the survey results are immaterial
because there was near-universal support from SEC senior managers is
troubling. The survey results showed in overwhelming fashion (approximately
80% in some categories) that the SEC staff whose offices were relocated in the
restacking believed communication was actually satisfactory prior to the moves;
that, to the extent the moves had any impact on communications, it made the
situation worse; and the project as a whole was a waste of SEC resources.
Brushing aside such universal feedback from the SEC staff merely because the
senior managers favored the project is not advisable in our view. It also directly
contravenes the GAO’s recommendation to the SEC, after the significant cost
overruns in connection with management’s previous construction projects, that
the Chairman direct the Executive Director to improve communications and
consultation with operating units and staff regarding space and property needs.

It should further be noted that notwithstanding management’s representation in
its response that there was near-universal support for the project from senior

Review of the Commission’s Restacking Project                          March 31, 2009
Report No. 461
                                                Page 44
managers, our survey results showed that when their opinions were sought
confidentially as part of our survey, many senior managers replied otherwise.
The following are just a few examples:

            •    This project was a waste of money and is extremely
                 disruptive to work at a critical time in the markets.
                 Numerous staff spent a significant amount of worktime
                 packing, unpacking and moving thus stopping or slowing
                 important regulatory projects and diminishing the work of the
                 SEC.

            •    There appears to have been funds spent on the new
                 building, chairs, moving staff, etc, that might have more
                 effectively been used providing the staff with technology or
                 surveillance information that would make our work more
                 effective.

            •    Seems like a waste of resources to restack.

            •    It is an absolute waste of time and money. We had moved
                 recently to this new building and things were working quite
                 well. The restacking disrupted everything for months and
                 took valuable staff time away from work for useless packing
                 and repacking and moving and removing. The new
                 configuration makes work far more ineffective and has upset
                 many staff who were moved from excellent space to much
                 less favorable workspace. No one can figure out why we
                 were forced to engage in this useless undertaking when staff
                 were needed at a critical work at a time the market was in
                 turmoil.

            •    [The Division] was mainly on one floor before the restacking
                 project, and having the remainder of [the Division] on the
                 floor immediately below the other floor did not seem to be
                 detrimental at all.

Management’s other criticisms of the survey are equally lacking in merit. For
example, it is difficult to understand management’s claim that the OIG survey
was “fundamentally incomplete,” when the OIG surveyed all Headquarters staff,
including all levels of employees and managers. Moreover, management
critiques the OIG for not working with management in designing the survey
questions, yet offers no suggestions as to how the questions could have been
improved. Similarly, if the OIG had adopted management’s suggestion that the
OIG should have waited until the construction was complete before initiating the
survey, it would have been too late to make any changes to the project based on

Review of the Commission’s Restacking Project                             March 31, 2009
Report No. 461
                                                Page 45
the survey results. Finally, management’s insistence on relying exclusively upon
the contractor’s project plan for a determination of each unit’s space needs, in
the face of the specific staff feedback in the survey that these needs will not be
met by the restacking project, is of concern.

Overall, as noted above, we are pleased that management concurs with all but
one of our recommendations in this report. We hope that, going forward,
management will exercise more care in expending the scarce resources the SEC
requires to perform its critical mission, particularly in these times of economic
crisis. We also hope that management makes a greater effort in the future to
analyze proposed construction projects, submit the appropriate documentation to
OMB, and obtain feedback from the staff who will be impacted by the projects to
ensure successful and cost-effective results.




Review of the Commission’s Restacking Project                         March 31, 2009
Report No. 461
                                                Page 46
                     Audit Requests and Ideas

The Office of Inspector General welcomes your input. If you would like to
request an audit in the future or have an audit idea, please contact us at:

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Request/Ideas)
100 F Street, N.E.
Washington D.C. 20549-2736

Tel. #: 202-551-6061
Fax #: 202-772-9265
Email: oig@sec.gov




      Hotline
      To report fraud, waste, abuse, and mismanagement at SEC,
      contact the Office of Inspector General at:

      Phone: 877.442.0854

      Web-Based Hotline Complaint Form:
      www.reportlineweb.com/sec_oig
